                  Independent Review of the U.S. Department of State 

                      Accounting of FY 2013 Drug Control Funds 

                           and Related Performance Report 

                               AUD-FM-14-19, February 28, 20 14 


        The Office of Inspector General (OIG) has reviewed the management assertions included
in the U.S. Department of State (Department) Accounting and Authentication ofFY 2013 Drug
Control Funds and Related Performance Report. The repo1t was prepared by the Bureau of
International Narcotics and Law Enforcement Affairs in accordance with the Office of National
Drug Control Po licy' s (ONDCP) circular Accounting ofDrug Control Funding and Petformance
Summary, dated January 18, 2013. Department management is responsible for the assertions
included in the report.

        OTG's review was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants. A review is substantially less in scope than
an examination, the objective of which is the expression of an opinion on management's
assertions. Accordingly, we do not express such an opinion.

       Based on OIG 's review, nothing came to OIG ' s attention that caused it to bel ieve that the
management assertions included in the report were not fairly stated, in all material respects,
based upon the ONDCP circular. However, we were unable to issue this attestation report by the
due date required by ONDCP because the Bureau oflnternational Narcotics and Law
Enforcement Affairs did not complete its final report by the mandated deadline of February 1,
2014.

       This attestation report is intended solely for the information and use of Department
management, ONDCP, and the U.S. Congress, and it is not intended to be and should not be used
by anyone other than these specified parties.




 orman P. Brown
Assistant Inspector General
 for Audits
